oo
I

OCKLE

2311 Douglas Street l ; E-Mail Address:
Omaha, Nebraska 68102-1214 L ega B rie is contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

v.
U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 5th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE LOCAL GOVERNMENTS IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DEBORAH A. SIVAS
Counsel of Record
ALICIA E. THESING
MATTHEW J. SANDERS
MOLLY L. MELIUS
ENVIRONMENTAL LAW CLINIC
MILLS LEGAL CLINIC AT
STANFORD LAW SCHOOL
559 Nathan Abbott Way
Stanford, CA 94305
(650) 723-0325
dsivas@stanford.edu

Subscribed and sworn to before me this 5th day of March, 2020. .
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September &, 2003

 

CSS Kepee. 0. thes) Qudrawh, Ch ly
Notary Public

 

Affiant 39469
 

Attorneys for Petitioners

Anchun Jean Su
Counsel of Record

Center for Biological Diversity 202-849-8399
1411 K Street NW, Suite 300
Washington, DC 20005

jsu@biologicaldiversity.org

Party name: Center for Biological Diversity, et al.

 

 

Attorneys for Respondents

Noel J. Francisco
Counsel of Record

Solicitor General 202-514-2217
United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Chad F. Wolf, et al.

 

 
